                                                              NATIONAL SCIENCE FOUNDATION
                                                               OFFICE OF INSPECTOR GENERAL
                                                                 OFFICE OF INVESTIGATIONS

                                                       CLOSEOUT MEMORANDUM


I   Case Number: A07010001
                                                                                                I               Page 1 of 1
                                                                                                                                     I
                      In our inquiry into an allegation of plagiarism in an NSF proposal,1we learned that several
             lines of text in the proposal appeared to have been copied without appropriate attribution by a PI^
             and/or his graduate student (Student I ) . ~We referred the matter to the PI'S in~titution,~        which
             conducted an investigation concluding that the PI had committed plagiarism in the proposal as well
             as its previously submitted version5 by recklessly copying 48 lines of text from another student's
             (Student 2 ' ~ MS) ~ thesis. The institution also found that Student 1 lacked the requisite intent to have
             committed plagiarism with respect to the lines of copied text he contributed to the proposal. The
             institution noted that it had not previously provided sufficient training on citation practices to
             Student 1, a non-native English speaker with no prior writing experience in ~ n ~ l i sThe h . ~institution
             imposed on the PI: a training and teaching requirement; a letter of reprimand placed in his personnel
             file for 5 years; and internal certifications for two years.

                     In our report (attached), we concurred with the institution that the PI had committed
             plagiarism but that he did so knowingly. We recommended that NSF: make a finding of research
             misconduct; issue a letter of reprimand; require certifications and assurances for 1 year; certify
             completion of the training imposed by the institution; provide for 1 year with any proposal submitted
             his plans for training any students or postdoctoral fellows to be funded in the responsible conduct of
             research;* and bar the PI from serving NSF in an advisory capacity for 2 years. NSF accepted our
             recommendations (attached).
                                                                                  t

                         Accordingly, this case is closed.




               The institution has taken steps to develop further its responsible conduct of research program including in part:
              expanded training sessions for students, postdocs, and faculty; online courses in ethics; increasing involvement of
              graduate student and undergraduate student councils; expanding its writing assistance program for graduate students;
              regularly inviting and recording for multiple viewings outside speakers (e.g.,from NSF and the Department of
              Health and Human Services) on ethics, research misconduct, and research.
                This is consistent with the Group I and I1 actions under 45 C.F.R. 689.3(a) as well as the America Competes Act,
              Pub. L. NO. 110-69.



    VSF OIG Form 2 ( 1 1/02)
                                      NATIONALSCIENCEFOUNDATION
                                         4201 WILSON BOULEVARD
                                        ARLINGTON,VIRGINIA 22230




                                              NOV 1 7 2008
         OFFICE OF THE
        DEPUTY DIRECTOR




           Re:     Notice of Research Misconduct Determination




1   Investigative Report prepared by NSF's Ofice of Inspector General ("OIG"), these proposals
    contained plagiarized text.

    Research Misconduct and Proposed Sanctions
            Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
    plagiarism in proposing or performing research funded by NSF ..." 45 CFR 3 689.1(a). NSF
    defines "plagiarism" as "the appropriationof another person's ideas, processes, results or words
    without giving appropriate credit." 45 CFR 8 689.1 (a)(3). A finding of research misconduct
    requires that:

           (1) There be a significant departure fiom accepted practices of the relevant research
               community; and
           (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
           (3) The allegation be proven by a preponderance of evidence.
I
i   45 CFR 8 689.2(~).
                                                                                            Page 2
        Your proposals contained verbatim and paraphrased text fi-omthe thesis of your graduate
student. Unbeknownst to you, the text you copied had been plagiarized fiom multiple sources b y ,
the graduate student. Nevertheless, by submitting proposals to NSF that copy the ideas or words
of another without adequate attribution, as described in the OIG Investigative Report, you
misrepresented someone else's work as your own. Your conduct unquestionably constitutes
plagiarism. I therefore conclude that your actions meet the delinition of "research misconduct"
set forth in NSF's regulations.

         Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR 5 689.2(c). After
 reviewing the InvestigativeReport and the University Committee Report, NSF has determined
 that, based on a preponderance of the evidence, your plagiarism was committed knowingly and
 constituted a significantdeparture fi-om accepted practices of the relevant research community. I
 am, therefore, issuing a finding of research misconduct against you.

         NSF's regulationsestablish three categories of actions (Group I, 11, and 111) that can be
taken in response to a fmding of misconduct. 45 CFR $689.3(a). Group I actions include issuing
a letter of reprimand; conditioning awards on prior approval of particular activities fiom NSF;
requiring that an institution or individual obtain special prior approval of particular activities fiom
IVSF; and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR 5 689.3(a)(l). Group I1
actions include award suspension or restrictions on designated activities or expenditures;requiring
special reviews of requests for funding; and requiring correction to the research record. 45 CFR 5
689.3(a)(2). Group I11 actions include suspension or terminationof awards; prohibitions on
participation as NSF reviewers, advisors or consultants; and debarment or suspension fi-om
participation in NSF programs. 45 CFR 5 689.3(a)(3).

       In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct,'our determinationthat it was knowing,,aswell as
our determination that it was an isolated incident. I have also considered the fact that your
misconduct had an impact on the research record, as well,as other relevant circumstances. 45
CFR 5 689.3 (b).

        In light of the foregoing, I am taking the following actions against you:
                                                                                                          I
        (1)    Until December 3 1, 2009, you must provide certifications to the OIG that any
               proposal you submit to NSF as a PI or co-PI does not contain plagiarized,
               falsified, or fabricated material;

        (2)    Until December 3 1,2009 you must submit assurances fi-om a responsible official of
               your employer to the OIG that your submissionsto NSF do not contain
               plagiarized, falsified, or fabricated material;

        (3)    You must certify to the OIG that you have completed research ethics training as
                                                                                         Page 3
               prescribed by the University before submitting any proposals to NSF on which
               your are the PI or co-PI;




                     before submitting any proposals to NSF;

       (5)     Until December 31,2009, you must provide a description of your plans for
               training students andforpostdoctoral researchers involved in any proposal of yours
               in the responsible conduct of research, if not otherwise provided as part of the
               submission of any proposals; and

       (6)     Until November 13,2010, you are prohibited h m serVing as an NSF reviewer,
               advisor, or consultant.

       All certificationsand assurances should be submitted in writing to the Office of Inspector
General, Associate Inspector General for Investigations,4201 Wilson Boulevard, Arlington,
Virginia 22230.


Procedures Governing Appeals
        Under NSF's regulations, you have 30 days after receipt ofthis letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR § 689.1 O(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become final.

       For your information, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please call             Assistant General Counsel, at (703)
292-8060.


                                                    Sincerely,



                                                    Kathie L. Olsen
                                                    Deputy Director
Enclosures
- InvestigativeReport
- 45 C.F.R. Part 689
CONFIDENTIAL                                                          CONFIDENTIAL

                                   Executive Summaw
Allegation:     Plagiarism in two NSF proposals.         t

OIG             OIG reviewed a proposal and seven source documents and contacted
Inquiry:        the PI (Subject 1) for his perspective. Subject 1 named Subject 2 (his
                graduate student) as the responsible party for the copied text. After
                communicating with Subject 2, OIG determined there was sufficient need for
                an investigation and referred the matter to the University.
University      The Committee determined by a prepbnderance of the evidence that
Investigation   Subject I recklessly copied material from a thesis written by his
and Action:     student (not Subject 2) into an NSF proposal. The proposal was submitted
                twice with both versions containing the same copied text. The Committee
                found that the thesis contained material from four of the seven sources OIG
                had identified and that Subject 1's copying of the thesis was a significant
                departure from accepted practices. The Committee determined that
                Subject 2's actions, which amounted to providing the copied material from the
                other three sources to Subject 1, were careless and therefore not research
                misconduct. The University Deciding Official concurred and with respect to
                Subject 1 imposed: a training and teaching requirement; a letter of reprimand
                in his personnel folder for 5 years; and certifications until 3 1 December 2009.

OIG's     .     OIG concurs with the Univ.ersity's assessment with respect to both
Assessment:     subjects.

                       The Act: Subject 1 copied the same 48 lines into two NSF proposals.
                       Intent: Subject 1 acted knowingly.
                       Standard of Proof: The preponderance of the evidence supports the
                       conclusion that Subject 1 committed plagiarism.
                       Significant Departure: Subject 1's plagiarism was a significant
                       departure from the accepted practices of his research community.
                       Pattern: The evidence reviewed is inconclusive regarding a pattern of
                       plagiarism.

OIG Recommends:
                       send a letter of reprimand to Subject 1 informing him that NSF has
                       made a finding of research misconduct;
                       require Subject 1 to certify to the Associate Inspector General for
                       Investigations (AIGI) completion of research ethics training as
                       prescribed by the University before submitting any proposals to NSF
                       on which he is the PI or CoPI;
                       require Subject 1 to certify to the AIGI that he has requested a
                       retraction or a correction to the published proceedings paper
                       containing the copied material before submitting any proposals;
                       for 1 year commencing with the date of NSF's finding of research
                       misconduct, require Subject 1 to provide to the AIGI a description of
CONFIDENTIAL                                                 CONFIDENTIAL

               his plans for training students and/or postdoctoral researchers involved
               in the proposed activity in the responsible conduct of research, if not
               otherwise provided as part of the submission of any proposals;
               for 1 year commencing with the date of NSF's finding of research
               misconduct, require the Subject to certify to the AIGI each time he
               submits a proposal or report to NSF that the proposal or report does
               not contain plagiarized, fabricated, or falsified material;
               for 1 year commencing with the date of NSF's finding of research
               misconduct, require the Subject submit to the AIGI assurances by a
               responsible official of his employer each time he submits a proposal or
               report to NSF that the proposal or report does not contain plagiarized,
               fabricated, or falsified material; and
               for a period of 2 years commencing with the date of NSF's finding of
               research misconduct, bar the Subject from serving as a NSF reviewer,
               advisor, or consultant.
  CONFIDENTIAL                                                                            CONFIDENTIAL


                                                             OIG's Inquiry

         The National Science Foundation WSF) Office of Inspector General (OIG) conducted an
 inquiry into an allegation that a proposal (Proposal 1)' contained plagiarized material. Our
 analysis of Proposal 1 identified 80 lines of text apparently copied from seven sources as
 summarized in Table 1.2


                                  Table 1. Summary of initial OIG analysis of
                                           alleged plagiarism




        We contacted the PI^,' (Subject 1) about the allegation. In his response, Subject 1 wrote,
 "The identical or substantially similar text in the proposal was included by graduate-students
 working on the proposal." We asked Subject 1 to provide the names of the graduate students,
 and he provided a single name, Subject 2.7,8 Subject 1 had not identified Subject 2 or any other
 person in Proposal 1 as an author or co-author as directed by the NSF Grant Proposal Guide
 (GPG).' We contacted Subject 2 about the allegation.I0 In his response, Subject 2 admitted to




   Source Documents, Tabs 2.A-2.G.




   ~ u b j e c t ~ l ' s r e s ~ o to e inquiry letter, Tab 4.
                                   n sthe
  ' Sub'ect 1's email dated 17 April 2007, Tab 4.
  'GPG (July 2004), I.D.3: "NSF expects strict adherence to the rules of proper scholarship and attribution. The
- a

 responsibility for proper attribution and citation rests with authors of a proposal; all parts of the proposal should be
 prepared with equal care for this concern. Authors other than the PI (or any co-PI) should be named and
 acknowledged Serious failure to adhere to such standards can result in findings of research misconduct." [Emphasis
 added.]
 10
    OIG inquiry letter to Subject 2, Tab 5.
CONFIDENTIAL                                                                           CONFIDENTIAL

assisting Subject 1 with part of Proposal 1 and specifically accepted responsibility for some
material copied from two of the seven source documents."

        We reviewed the responses and concluded that there was sufficient evidence to warrant a
detailed investigation with respect to both subjects, and referred the matter to the university. 12,"

                                 The Universitv's Inquiry and 1nvestigation14

        After taking steps to secure relevant documents and electronic evidence, the University
completed its own inquiry consistent with its policies and procedures.15916The inquiry committee
determined that a detailed investigation was warranted." The University initiated its
investigation and assembled an ad hoc investigation committee (the Committee). l8 The
Committee reviewed documentary evidence and interviewed both of the subjects to determine
how the text and references from the source documents were incorporated into Proposal 1.

       The Committee learned from Subject 1 that Pro osal 1 was a revision of Proposal 2,19
which he had submitted to NSF about 6 months earlier!'     Subject 1 made "very little changes"
between Proposal 2 and Proposal 1.21722 Therefore, we will refer to the text copied into the
Proposals (i.e., Proposal 1 and Proposal 2) throughout the remainder of the discussion. Subject 1
submitted the Proposals in part to obtain funding to support Subject 2, who is one of his graduate
students.

                                          Text fiom Sources A, B, D, and E

        Subject 1 admitted that he prepared the Proposals by taking "some of the background
materials from [his graduate student's] thesis and put it into [the ~ r o ~ o s a l s ] .The
                                                                                          " ~ ~graduate
student (the Thesis             who wrote the thesis from which Subject 1 copied the text is not
Subject 2. The Thesis Student graduated before Subject 1 copied the material into the
~ r o ~ o s a l The
                s . ~Committee
                     ~         did not interview the Thesis Student because the Thesis Student left


11
     Subject 2's response to the inquiry letter, Tab 6, page 2.
12
13
   OIG investigation referral to the Universitv. Tab 7.
14
   The university carried out an inquiry and investigation with respect to both Subject I and Subject 2.
1s
   The University Research Misconduct Policy and Procedures, Tab 8.
16
   The University Inquiry Report, Tab 9.
" Tab 9.




Tab 12.
20 Subject 1's interview with the Committee, Tab 14, page 2.
" Tab 14, page 2.
22 We have independently compared Subject 1's two proposals and found that they are substantially the same. See
Tab 13 for the side-by-side analysis.

"Tab
2s The Thesis Student submitted his M.S. thesis o
                                                n-               He entered the Ph.D. program at the University
where he subsequently took a class in which he and Subject 2 collaborated on a project.
CONFIDENTIAL                                                                         CONFIDENTIAL

the Ph.D. program before the allegations arose and was no longer at the            The Thesis
Student was unaware that the materials he prepared would be used for a submitted NSF


        The material from the thesis accounts for the text from Sources A, B, D, and E
comprising a total of approximately 48 lines and 3 embedded references. Subject 1 submitted
this text to NSF in the Proposals. Subject 1 told the Committee:

                   I did not know at the time that this text was directly copied [by the
                   Thesis Student] without quotation marks, I did not know that. 1
                   assumed that the student had gone to get help with his English. He
                   was an international student, and had cleaned it up and the citations
                   were given, but no quotation marks. So I got from his thesis, um,
                   cited the original reference and put it into the proposal. That's for
                   most of the instances. There's one of the instances that I can not
                   remember putting in myself. I think I got it from [Subject 21. But
                   I can not find any correspondence to prove it. And that was a very
                   long one on a certain software program [Source F], what it's
                   capabilities are.[281


When asked by the Committee whether he considered citing the Thesis Student's work, he
replied: *

                   I considered it, right or wrong, umm, to be kind of fair game for
                   me as his advisor to use things from his thesis. Now again, I didn't
                   cite his thesis, I cited the original works, thinking that maybe I
                   should have cited this differently, I don't know the proper
                   method, . . . I thought it was better to give the original.[291

        Thus, the Committee determined that Subject 1 bears the responsibility for the
appearance of the 48 lines of text with 3 embedded references attributed to Sources A, B, D, and
E in the Proposals as summarized in Chart 1."




26
     Tab 10, page 6.
'' Tab 14, page 6.
   Tab 14, page 3.
29 Tab 14, page 7.
30
   The Committee referred the allegation that the Thesis Student plagiarized in his thesis to the Dean of Graduate
School as required by University policy. Tab 10, page 6. We have asked the University to determine whether and
to what degree the Thesis Student received NSF support for his thesis work.
 CONFIDENTIAL                                                                            CONFIDENTIAL

                  Thesis Student's

                                                                                                 The Proposals
                                                                                                      -
                                                                                                      -
                                                                                                      --
                                                                                                       4 ,
                                                                                                         .




                  Chart 1. The incorporation of copied text from Sources A, B, D,
                           and E into the Proposals.


                                         Text fieom Sources C, F, and G

        With respect to Subject 2's contributions, the Committee learned that he had provided
some material to Subject 1 for the Proposals. Subject 1 involved Subject 2 in the proposal
drafting process as part of his training, and Subject 2 did know that the purpose of the Proposals
was to obtain funding for the research that would become the basis for his dis~ertation.~'

        In addition to supplying Subject 1 with the copied text, Subject 2 also used this material
(32 lines, 1 embedded reference, from Sources C, F, and G) as part of a class assignment which
he and the Thesis studentJ2completed together for a professor other than Subject 1.33.34
Subject 2 worked on the class assignment while at the same time helping Subject 1 with
Proposal 2. It is unclear in which direction the copied text movedJ5because the classroom
assignment began before and was completed afier the University submitted the first of the
Proposals. However, Subject 2 admitted responsibility for co ing the materials from
Sources C, F, and G, eliminating the need for that distinction.YT37

3' Tab 14, page 7; and Tab 15, pages 8 - 9.
32
   At the time the class assignment was given, the Thesis Student had completed his M.S. with Subject 1 and was
enrolled as a Ph.D. student with a new advisor (i.e.,not Subject I), but it appears that the Thesis Student at the time
of our inquiry had already left the University to complete his Ph.D. work elsewhere.
33
   Tab 10, pages 6 and 10; and Tab 15, pages 7 - 8.
34 The Class Assignment, Tab 17. Based on the cover page for the class assignment, the assignment was the
preparation of a NSF proposal.
3S i.e., from the class assignment into the Proposals or from the Proposals into the class assignment.
36Tab15,pages 10-11,and 15-16.
37 There is no evidence to suggest that the Thesis Student copied those materials into the class assignment or
participated in its incorporation into Proposal 2.
CONFIDENTIAL                                                            CONFIDEIVTIAL



        Thus, the Committee determined that Subject 2 bears the responsibility for the 32 lines of
text and one embedded reference attributed to Sources C, F, and G that appeared in the Proposals
as summarized in Chart 2.

                                                                           I
                                                                           7
                                                                                   The Proposals


                                                                                       80 lines,
                                                                               k     4 embedded
                                                                                      references


                                                                                            revision
                                                  ISubiect 2
                                                    32 iines,
                                                  1 embedded

            Thesis Student's and        /          reference                           80 lines
                                                                                     4 embedded
         Subject 2's class assignment
                                        I                                             references


               Chart 2. The incorporation of copied text from Sources C,F, and G
                        into the Proposals.
    CONFIDENTIAL                                                                     CONFIDENTIAL

           Therefore, the Committee found that the copied text became incorporated in the
    Proposals according to scheme shown in Chart 3.




                                                                      L
                      Thesis Student's
                       M.S. Thesis
                                                          Subject 1
                                                          48 lines,
                                                        3 embedded                        The Proposals
                                                         references
                                                                                                       -
                                                                                 I
                                                                                           /----
                                                        '\J                              J   ~roposalz
                                                                                     $2        80 lines,
                                                                                     \
                                                                                             4 embedded
                                                                                              references


                                                         a/                                       I revision
                                                           Subject 2
                                                            32 lines,
                                                          1 embedded
                                                           reference                           SO lines
                   Thesis Student's and                                                      4 embedded
                Subject 2's class assignment                                                  references


                      Chart 3. Summary of the incorporation of copied text i 3m all
                               sources into the Proposals.

i
!                                   The Subjects' Understanding o f Plagiarism

           Both Subject 1 and Subject 2 expressed a lack of understanding of the appropriate
    presentation and citation of quoted materials.

            The Committee asked Subject 1 about his general understanding of citation and his
    practices. Subject 1 responded:

                      It's embarrassing, but I've never had formal training in proper
                      citation methods. I had general ideas from reading journal papers, I
                      saw what others did but I can not even tell you what is the Bible
                      for how you cite these things, . . . but really I need more training
                      on this issue, proper citation methods . . . I have seen some
                      quotation marks in some journal papers, and have seen that yes.
                      So, I mean it's obvious I should have been more careful on this
                      proposal. I admit that.[381



    38   Tab 14,page 4.
w                  .
                   ~


                       ---     .C--         . .- .   -~   ---   - - - -   --   P   I   -   -   _ --   .   -_   - _ __
                                                                                                                        I
                                                                                                                            --   -   -. -   7
                                                                                                                                            --
                                                                                                                                                 .. -
                                                                                                                                                 -




    F




        CONFIDENTIAL                                                                                       CONFIDENTIAL


        The Committee found it "unusual" for an Associate ~ r o f e s s o rwho
                                                                           , ~ ~ is an-associate editor for a
        peer-reviewed journal4' and a member of several professional societiesY4'to not know how to
        properly cite and quote material. The Committee also noted that Subject 1 "did not teach his
        students how to properly cite and quote text."42

                Similarly, the Committee asked Subject 2 about his training and understanding of
        appropriate citation. Subject 2 is not originally from the United States and received all of his
        academic training in his home country43before coming to the University as a graduate student.44
        His understanding prior to our inquiry appeared to be that he could use someone else's text so
        long as he provided a citation, but he did not understand the mechanics of distinguishing quoted
        material from his own original material.45 His only training at the University regarding citation
        of sources came during graduate school ~ r i e n t a t i o n . ~ ~

                Thus, the Committee determined that it was "unusual" for someone with Subject 1's
        status as a faculty member and journal editor to lack any formal training in citation or not to
        teach his graduate students how to cite and quote properly.47 With respect to Subject 2, the
        Committee determined that as a non-native English speaker under the specific circumstances of
        this case, Subject 2 did not have sufficient training or understanding of how to cite and quote
        properly.48

                                      The Committee's Conclusions Regarding Subject I

                The Committee found by a preponderance of the evidence that Subject 1:

                         copied parts of his graduate student's thesis without attribution, did
                         not provide proper training to his graduate students in regards to
                         citing and quoting other people's work, and did not acknowled e a
                                                                                          f
                         graduate student's help in the preparation of the NSF proposal.[ 91

        This finding is consistent with the University's definition of plagiarism ("Plagiarism or other
        appropriation of the work, ideas, processes results or words of another individual and presenting
        it as if it were one's own without credit to the ~ r i ~ i n a t o r " )as
                                                                                ~ ' well as NSFYsdefinition ("the
        appropriation of another person's ideas, processes, results or words without giving appropriate




        45 Tab 15, page 4.
        46 Tab 10, page 9.
        47 Tab 10, page 6.
        48 Tab 10, page 10
        49 Tab 10, page 7.
           Tab 8, page 1 .
CONFIDENTIAL

credit")." The Committee also found that the copying was a significant departure from the
accepted practices of two relevant communities: 1) the community of PIS submitting proposals to
NSF; and 2) the academic community with respect to the advisor-advisee relationship.52 With
respect to the community of NSF PIS, the Committee identified as significant departures
Subject 1's failure to cite source material properly and his failure to identify a coauthor
(Subject 2) on the proposals as directed by the GPG." With respect to the academic community,
the Committee found significant departures in Subject 1's "violation of an advisor-advisee trust"
in assuming ownershi of an advisee's thesis and in his failure to train his students in proper use
of the work of others. p4

        The Committee reviewed other documents which Subject 1 authored and found evidence
supporting a pattern of using copied text. In particular, the Committee identified six published
conference proceedings papers, of which fives5 contained text in common with the copied text
attributable to both Subject 1 and Subject 2 in the Proposals. Subject 2 was not a coauthor on the
sixth paper.56'57Using a commercial plagiarism application, the Committee found "several,
short passages that appeared to be copied from internet sources" in this paper.58

        The Committee found by a preponderance of the evidence that Subject 1 acted
recklesslys9 and that his actions constituted a pattern of behavior. The Committee found a
pattern of using the copied text in six published proceedings papers coauthored by Subject 1, five
of which showed Subject 2 as a coauthor and included some portion of the text identified in this
inve~ti~ation.~'  Although published, the Committee found the impact on the research record to
be minimal.61

                             The Committee S Conclusions Regarding Subiect 2

       The Committee found by a preponderance of the evidence that Subject 2 copied the
material from Sources C, F, and G into the ~ r o ~ o s a l The
                                                           s . ~ Committee
                                                                 ~         found that these actions
were a significant departure from accepted practices.63 However, the Committee found that
Subject 2's actions were careless, noting that "(a) he was influenced by the improper practices of

" 45 C.F.R. 689.1(a)(3).
52 Tab 10, page 7 - 8.
53 Tab 10, pages 7 - 8.
54
   Tab 10, pages 7 - 8.
55 Tab 22.
56 Tab 23.
''
     -
   Subiect 1's coauthors were three undergraduate co-authors at his previous institution-

          23. Printout of analysis included after the text of the published paper.
59 Tab 10, page 9.
60
   Tab 10, page 8. See Tabs 22 and 23 for copies of the published conference proceedings papers.
6' Tab 10, page 8.
62
   Tab 10, page 10. We note that the Committee in its finding refers to "two incidents of unquoted text that appear
in . . . the proposals." Read in conjunction with the Committee's table assigning responsibility for the different
contributions of copied text to the proposals, we find that the Committee is treating materials from Sources F and G
as contributed from a single document-the class assignment. Thus, the Committee is treating the class assignment
as the immediate source of the text copied into the proposals much the same way it treated the M.S. thesis as the
immediate source of the text copied.
63
   Tab 10, page 10.
CONFIDENTIAL                                                                           CONFIDENTIAL

his advisor . . . and (b) he did not himself submit the research proposal without giving credit to
the other participants as [Subject 11 did."64 Thus, the Committee concluded that Subject 2 did
not commit research misconduct.


                                         The Universitv's ~ c t i o n s ~

        The University's Deciding           upheld the Committee's findings and accepted its
recommendations as well as the recommendations of the Vice-President for Research. With
respect to Subject 1, the recommendations included:

     1. Subject 1 should certify his attendance at a university-approved course on academic
        integrity before submitting any proposals for funding;

     2. Subject 1 should teach a graduate student orientation course on academic integrity at
        least three times after attending the course required above;

     3'. Until 3 1 December 2009, Subject 1 should prepare for each proposal submitted to NSF a
         certification to the NSF OIG that he has complied with University and NSF standards of
         scholarship; and

     4. A letter of reprimand be placed in Subject 1's personnel file for a period of 5 years.

        Although there was no finding of research misconduct for Subject 2, the Deciding
Official accepted the recommendations with respect t'o Subject 2, which included:

     1. As a condition of continuation of his Ph.D. program, he should complete training on the
        methods of proper attribution; and

     2. On completion of his dissertation, he should certify to the Graduate Dean that he has
        complied with the University academic integrity policy.

        The Deciding Official also accepted recommendations for handling the allegation of
plagiarism involving the Thesis           and for raising campus awareness of research
misconduct and its consequences

                                               OIG's Assessment

       We notified the subjects that we had received the Committee's report and offered each of
them the opportunity to respond with any additional comments. Subject I provided a short



64 Tab 10, page 10.
65 The University's Final Decision, Tab 11.
66 The Provost and Vice President for Academic Affairs.
67 We do not know at this time if the Thesis Student received any NSF support for his thesis. It is unlikely given that
Subject 1 did not have an active NSF award during the period Thesis Student would have been preparing his thesis.
CONFIDENTIAL                                                               CONFIDENTIAL

response offering to respond to any of our questions and expressing regret.68 Subject 2 did not
respond.

        We reviewed the Committee's report and the University's conclusions and determined
that the Committee's investigation was accurate and complete in accordance with reasonable
procedures.69

        A finding of misconduct requires that (1) there be a significant departure from accepted
practices of the relevant research community, (2) the research misconduct be committed
intentionally, or knowingly, or recklessly, and (3) the allegation be proven by a preponderance of
the e~idence.~'

                                               The Act

        We concur with the University that both subjects' actions are consistent with the
definition of plagiarism and represent a significant departure from the accepted practices of the
relevant research community. Regardless of the ultimate source of the copied text (i.e.,
Sources A through G as identified in our inquiry), Subject I copied 48 lines of text and 3
embedded references from the M.S. thesis of his advisee (i.e., the Thesis Student) directly into
the Proposals and submitted them to NSF. Subject 2 copied 32 lines of text with 1 embedded
reference and provided that material to Subject 1 for inclusion in the Proposals.

        Thus, we conclude that the evidence supports finding that Subject 1 and Subject 2 both
copied the text without giving appropriate credit in significant departure of accepted practices of
the relevant research community.

                                               Intent

        We concur with the University that Subject 2 did not exhibit the requisite intent in
carrying out the actions described above and that Subject 1 exhibited the requisite intent (i.e., at
least reckless) for a finding of research misconduct.

       Subject 2 is an international student and a non-native English speaker with limited skill
and practice in English as demonstrated by his written communications and the transcript of his
oral communications during this investigation.71 His formal education prior to attending the
University was in his home country, and he had no publication experience prior to coming to the
United           The Committee discussed at length with Subject 2 his understanding of citation
and plagiarism. It appears that although he understood at some basic level the need to offset the
copied text from his original text, he lacked an understanding of the mechanical conventions for
doing so in ~ n ~ l i s This
                        h . ~rationale
                              ~         is supported by the University's recognition in its


     Tab 21.
69   45 C.F.R. 689.9.
70 45C.F.R. 689.2(c).
7' Tabs 6 and 15.
72
   Tab 15, page 2.
73
   Tab 15, pages 3 - 4.
I   CONFIDENTIAL                                                               CONFIDENTIAL

    recommendations to improve its own approach to educating graduate students as well as its
    conclusion that Subject 1 apparently failed to mentor his students in at least this aspect of their
    training." The University appears to have accepted responsibility for the lapse in Subject 2's
    training and implemented steps to rectify this.75


~            Thus, we conclude that the evidence supports finding that Subject 2, lacking sufficient
    intent, did not commit research misconduct.

            We conclude with respect to Subject 1, however, that his actions were knowing. He
    copied directly from the Thesis Student's thesis, using the embedded citations while asserting
    that he was maintaining reference to the original sources.76 He stated his belief that he was
    unaware that the Thesis Student had copied inappropriately.77 The fact that the Thesis Student
    may have plagiarized from the sources we identified is not influential in the analysis of whether
    Subject 1 knowingly copied from another's work without citation. We are not persuaded by the
    argument that he felt at the time entitled to use his Thesis Student's work as if it were his own in
    the absence of any concrete evidence to support that the work was collaborative to such a degree
    that Subject 1 should have been included as an author. If, as Subject 1 said in his interview, he
    believed that his Thesis Student had simply gotten help with English, then it follows that he
    knowingly copied what he believed to be his Thesis Student's original text. By stating this,
    Subject 1 distanced himself from any collaborative effort in the thesis with respect to the copied
    text and therefore undermined his own assertion that he believed the use the text to be "fair
    game."78

            Furthermore, Subject 1 is an Associate Professor and associate editor of a peer-reviewed
    journal,79 which argues against his asserted defense that he lacked an understanding of the
    mechanics of appropriate attribution. He acknowledged in his interview with the Committee that
                                                                                                80   '


    he had seen other authors use quotation marks and indentation to offset the work of others.
    The primary issue of concern is not that he failed to use the correct punctuation or source
    abbreviations, but that he failed to distinguish his own work from someone else's work in any
    detectable manner.

           Thus, we conclude that the evidence supports finding that Subject 1 committed knowing
    research misconduct.

                                             Standard o f Proof

            We conclude that the preponderance of the evidence supports a finding that in a
    significant departure from accepted practice in the relevant research community, Subject 1
    knowingly copied 48 lines of text from his advisee's M.S. thesis into a proposal that he


    74  Tab 10, page 8.
    75  Tab 1 1, page 3.
    76
        Tab 14, page 3.
    77
        Tab 14, page 3.
    78
        Tab 14, page 7.
    7 9 Tab 19.
    80
        Tab 14, page 4.
CONFIDENTIAL                                                                   CONFIDENTIAL

submitted twice to NSF. Therefore by a preponderance of the evidence, Subject 1 knowingly
committed research misconduct.

        We conclude that the preponderance of the evidence supports that Subject 2 copied 32
lines of text with 1 embedded reference in a significant departure from accepted practice in the
relevant research community, but that he did so carelessly. Therefore, we conclude that
Subject 2 did not commit research misconduct. Thus, our remaining discussion concerns only
Subject 1.

                                 OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:

                (2) How serious the misconduct was; (2) The degree to which the
                misconduct was knowing, intentional, or reckless; (3) Whether it
                was an isolatid event or part of a pattern; (4) Whether it had a
                significant impact on the research record, research subjects, other
                researchers, institutions or the public welfare; and (5) Other
                relevant circumstance^.^^

                                               Seriousness                        .
        The NSF merit review process relies on PIS' "strict adherence to the rules of proper
scholarship and attribution" including the identification of coauthors other than the PI or any Co-
p ~ In.this~ particular
                 ~      case, Subject 1 failed to identify Subject 2 as a co-author in the Proposals.
When we view this in light of his use of his Thesis Student's thesis text as if it were his own,
Subject 1 presented the proposals to NSF as the product of his own effort until confronted with
the allegation, at which time he passed blame to his students.83 It was not until later in the
investigation process that he accepted any responsibility for his own actions.84 As noted by the
Committee, Subject 1 failed to train his students adequately in appropriate attribution. While
Subject 1's performance as a mentor has no direct bearing on a determination of whether he
committed research misconduct, it appears to be a relevant and aggravating factor in evaluating
Subject 1's role in the present case and the seriousness of his actions.

                               Degree To Which The Act Was Knowing

        As described above, we concluded that Subject 1 copied from his advisee's thesis
knowingly rather than recklessly. As described above, we are not persuaded by Subject 1's
assertion that he believed he was entitled to use the text from his advisee's thesis. We are also
not persuaded that Subject 1 did not know how to quote materials properly. Unlike Subject 2,

   45 C.F.R. 689.3(b)
82
   GPG, NSF 04-23 and its successor document Proposal andAward Policies and Procedures Guide (Part I -
Proposal Preparation and Submissions Guidelines GPG) NSF 08-1 Chapter 1.D.3.
83 Tab 4, letter page 1 and email page 1.
84
   Tab 14, pages 2 - 4.
CONFIDENTIAL                                                                         CONFIDENTIAL

Subject 1 received his academic training at U.S. universities and has published numerous
refereed publications.g5 It is, therefore, a specious defense that he had no prior exposure to the
use of quotation marks or block indentation, skills that are taught commonly in high school and
undergraduate level writing courses. Furthermore, such a defense lacks credibility given his
position as an Associate Professor and an associate editor for a peer-review journal in his field of
expertise. The professional association that publishes that journal has guidance for its editors
and authors which addresses the importance of citation. In its own style guide, it even
incorporates by reference The Chicago Manual of               In addition to his editorial
responsibilities, Subject 1 has reviewed proposals for N S F as ~ ~well as other federal agenciesgg
and therefore had some knowledge of NSF's expectations for scholarship.

        Thus, we conclude that Subject 1's knowing disregard of common scholarship practices
elevate his actions in this case beyond recklessness and within the bounds of knowing.

                                             Pattern o f Behavior

                We conclude that the evidence is insufficient to support a pattern of plagiarism
attributable directly to Subject 1. Although the Committee identified six published proceedings
papers containing copied text, g9 five of those papers, which he co-authored with Subject 2,
"contain[ed] plagiarized material [in] common with the NSF proposal under i n v e ~ t i ~ a t i o n . " ~ ~
Under the circumstances in this case, at most this appears to be Subject 1's reuse of the copied
text from the Proposals as if it were his own, rather than a pattern of copying text from other
sources into his ongoing publishing endeavors.




85
   According to the information on his personal webpage, Tab 19.
86 Tab 20. -
87
   Subject 1 provided ad hoc reviews twice in 2002 and once in 1999. In 2005, NSF requested an ad hoc review of
another proposal, but Subject 1 did not respond with a review.
88Tab19. -
   None of the six published instances acknowledged NSF support, which is not unexpected given hta-
                                          No annual reports, and therefore none citing these publications, have been
submitted for that award. The proposal for that award was submitted after the material was copied and published.
90
   Tab 10, page 8.
CONFIDENTIAL                                                                         CONFIDENTIAL



                                       Impact on the Research Record

       With respect to the Proposals, the Committee found there to be minimal impact on the
published research record, focusing on the six proceedings papers. The Committee noted that the
copied text in the proceedings papers involved background material rather than data or results.
This factor appeared to weigh heavily in the Committee's determination of minimal impact. The
Committee made no recommendation for correcting or retracting the publications.

        Our analysis of the six published proceedings papers found that only one proceedings
paper included a significant amount of copied text, which we also found in the Proposals as

compendium of conference proceedings for sale on the professional society's ~ e b ~ aP'92~ e . ~
previously described. The paper continues to be available to the research community as art of a

Although there is minimal danger of someone wasting resources on a research course premised
on the plagiarism here, the research record does not adequately reflect the source of text and
ideas copied.

        We also disagree with the Committee that background information should be
distinguished from other types of information. In the case of the proceedings paper containing
material from the thesis, the copied material describes a component of the methodology
Subject 1 and Subject 2 were presenting in a new application to the analytical problem
addressed. While the application of the methodology to the problem may have been novel, the
source of that methodology and the author of the description of the methodology copied are not
attributed sufficiently to distinguish the material from the original work of Subject 1 and
Subject 2.

       Thus, we conclude that there is an impact on the research record warranting correction by
Subject 1.


                                              Recommendations

        Based on the evidence, OIG recommends that NSF:

        send a letter of reprimand to Subject 1 informing him that NSF has made a finding of
        research m i ~ c o n d u c t ; ~ ~
        require Subject 1 to certify to the Associate Inspector General for Investigations (AIGI)
        completion of research ethics training prescribed by the University before submitting any
        proposals to NSF on which he is the PI or C O P I ; ~ ~




91 Tab 24.
92 We also note that proceedings papers are generally not subject to peer review, a process which might otherwise
identify plagiarism or other misconduct.
93 A Group I action, 45 CFR 689.3(a)(l)(i).
94
   Consistent with Group I actions, 45 CFR 689.3(a)(l).
CONFIDENTIAL                                                                       CONFIDENTIAL


        require Subject 1 to certify to the AIGI that he has requested a retraction or a correction
        to the published proceedings paper containing the copied materia1 before submitting any
        proposals; 95
        for 1 year commencing with the date of NSF's finding of research misconduct, require
        Subject 1 to provide to the AIGI a description of his plans for training students and/or
        postdoctoral researchers involved in the proposed activity in the responsible conduct of
        research, if not otherwise provided as part of the submission of any proposals;96
        for 1 year commencing with the date of NSF's finding of research misconduct, require
        the Subject to certify to the AIGI each time he submits .a proposal or report to NSF that
        the proposal or report does not contain plagiarized, fabricated, or falsified material; 97
        for 1 year commencing with the date of NSF's finding of research misconduct, require
        the Subject submit to the AIGI assurances by a responsible official of his employer each
        time he submits a proposal or report to NSF that the proposal or report does not contain
        plagiarized, fabricated, or falsified material;98and
        for a period of 2 year commencing with the date of NSF's finding of research
        misconduct, bar the Subject from serving as a NSF reviewer, advisor, or c o n ~ u l t a n t . ~ ~


                  The Subiect's Res~onseto OIG's Draft Investigation Report

        Subject 1 responded by email that he had "no comments or              rebuttal^."'^^




95 A Group II action, 45 CFR 689.3(a)(2)(iii).
96
   Consistent with Group I and I1 actions, 45 CFR 689.3(a)(l-2), and the America Competes Act, Pub. L. No. 11 0-69
$$7008-7009.
97
   Consistent with Group I actions, 45 CFR 689.3(a)(l).
98
   A Group I action, 45 CFR 689.3(a)(l)(iii).
99 A Group 111 action, 45 CFR 689.3(a)(3)(ii).
loo Tab 25.
